A-1

No. ______________

In The

Supreme Court of the United States
Rene Gosselin

petitioner

v.

COMMONWEALTH OF MASSACHUSETTS
respondent

On Petition for a Writ of Certiorari
to the Massachusetts Supreme Judicial Court

APPENDIX
Theodore Francis Riordan

Counsel of Record

Deborah Bates Riordan
Bates & Riordan, LLP
5 Beale Street
Quincy, Massachusetts 02170
(617) 328-8080
triordan@batesriordan.com

John P. Riordan, Jr.
Law Offices of John Riordan
403 North Montello Street
Brockton, Massachusetts 02301
(617) 588-5562
jriordan@riordanlawgroup.com

A-2

TABLE OF CONTENTS, APPENDIX
Appendix A, Opinion of the Supreme Judicial Court of Massachusetts……………A-3
Appendix B, Order of the Supreme Judicial Court of Massachusetts,
Denying the Motion for Reconsideration……………………………….A-12
Appendix C, Opinion of the Superior Court, denying motion for new trial……….A-13

Social Law Library

1 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-3
Supreme Judicial Court/Massachusetts Appeals Court

Citation: 486 Mass . 256
Parties: COMMONWEALTH vs. RENE GOSSELIN.
County: Bristol
Hearing Date: April 10, 2020
Decision Date: November 19, 2020
Judges: GANT S, C.J., LENK, GAZIANO, LOWY, & KAFKER, JJ.[1]

Homicide.
Subpoena,
Subpoena.
Practice,
suppress,

Cellular Telephone. Constitutional Law, Assistance of counsel,
Grand jury, Privacy. Grand Jury.
Privacy. Search and Seizure, Expectation of privacy, Warrant.
Criminal, Capital case, Assistance of counsel, Motion to
Grand jury proceedings, Subpoena.

At a murder trial, the defendant's counsel was not ineffective for failing
to move to suppress the defendant's optical records, where the Commonwealth
had subpoenaed those records, which were in the possession a third party,
using proper procedure and for the proper purpose of presenting evidence to
the grand jury; further, the optical records were not privileged and the
defendant had no reasonable expectation of privacy in them. [260-264]
At a murder trial, the failure of the defendant's counsel to move to
suppress cell site location information (CSLI) did not create a substantial
likelihood of a miscarriage of justice due to ineffective assistance of
counsel, where the affidavit accompanying an application for a search
warrant of the defendant's home, even with the CSLI evidence excised,
demonstrated probable cause to believe that the defendant committed the
murder and that a search of his home would produce evidence related to the
crime. [264-267]
INDICTMENT found and returned in the Superior Court Department on June
25, 2008.
A pretrial motion to suppress evidence was heard by Robert C.
Cosgrove, J.; the case was tried before Thomas F. McGuire, Jr., J., and a
motion for a new trial, filed on September 27, 2016, was heard by him.
Theodore F. Riordan for the defendant.
Mary E. Lee, Assistant District Attorney, for the Commonwealth.
LO W Y, J. In 2012, a jury convicted the defendant, Rene Gosselin, of
murder in the first degree in connection with the death of Frederick
Thompkins. In this direct appeal from the conviction, with which we have
consolidated his appeal from the 2019 denial [257] of his motion for a new
trial, the defendant claims that his trial counsel was ineffective for not
moving to suppress (1) the defendant's optical records, which he alleges
the police obtained unconstitutionally after the prosecutor misused the
grand jury subpoena power; and (2) the defendant's cell site location
information (CSLI), which the police included in its warrant application to
search the defendant's home, where they located evidence critical to the
jury's verdict. The defendant finally asks us to vacate his conviction or
to order a new trial pursuant to G. L. c. 278, § 33E. We affirm the trial
judge's denial of the motion for a new trial and decline to exercise our
authority pursuant
to G. L. c. 278, § 33E.
1. Background. a. Facts. On February 15, 2008, the police found the
victim's decomposing body on the floor of his apartment, surrounded by a
pool of blood. Experts estimated that the victim had been dead for about a
2/15/2021, 1:53 PM

Social Law Library

2 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-4
week. At the crime scene, the police found a pair of eyeglasses with the
right lens popped out and with the victim's bloody fingerprint
1/7
on the left lens. The police also found a bloody footprint with the word
“Vans” clearly visible; the footprint matched a size thirteen Vans MacGyver
shoe. The police never recovered the victim's primary cell phone.
The victim sold cocaine and marijuana discerningly by limiting his customer
base and by only admitting into his apartment customers whom he knew. The
defendant was a customer and someone who visited with the victim at his
apartment from time to time. The defendant was also the only person who
wore size thirteen shoes out of the approximately twenty people whom the
police interviewed shortly after discovering the victim's body. According
to the victim's cell phone records, the defendant and the victim called
each other repeatedly in the week leading up to the victim's death, and the
defendant was the last person the victim called on February 8, 2008, before
he died.
The victim's cell phone records indicated that following the victim's final
outbound call at 4:56 P .M. on February 8 to the defendant, the victim
received four subsequent calls, some of which came from the defendant, and
all of which went to voicemail. The records further indicated that the
victim's cell phone connected to only one tower near the victim's apartment
for all 210 calls made between February 1, 2008, and 5:46 P .M. on February
8, 2008. Starting with a 5:46 P .M. call, which came from the defendant,
the victim's cell phone pinged off different towers from the 210 earlier
calls. In fact, during the 5:46 P .M. call, the [258] victim's cell phone
pinged off two different towers, which indicated that the cell phone was
moving.
Given that the defendant was the only person the police interviewed who
wore size thirteen shoes, and considering the pattern of the victim's final
calls, the defendant became a suspect following his first interview with
the police. In furtherance of their investigation into the defendant, the
Commonwealth submitted a motion to obtain the defendant's CSLI pursuant to
the Federal Stored Communications Act, 18 U.S.C. § 2703(d), which a
Superior Court judge granted on March 3, 2008. The CSLI indicated that the
defendant's cell phone connected to a tower located just blocks away from
the victim's apartment during the 4:56 P .M. call, and that the defendant's
cell phone connected to the same towers as the victim's cell phone during
the 5:46 P .M. call.
Using the CSLI to bolster other evidence that the police had already
gathered, the Commonwealth obtained a warrant to search the defendant's
apartment for evidence, specifically including the victim's primary cell
phone and anything related to size thirteen Vans MacGyver shoes. On March
5, 2008, while officers were interrogating the defendant for a second time
at the police station, other officers executed the search warrant at his
apartment. Inside the apartment, the police found a shoebox for size
thirteen Vans MacGyver shoes filled with the defendant's paperwork and an
empty eyeglasses case from Walmart Vision Center.[2] They did not recover
any Vans MacGyver sneakers or the victim's cell phone.[3]
Near the beginning of the March 5 interrogation, the defendant admitted
that he repeatedly called the victim in the days before February 8 because
he owned a pair of eyeglasses with a lens that always popped out and had
left them at the victim's apartment. Immediately thereafter, an assistant
district attorney issued a grand jury subpoena to the defendant's
2/15/2021, 1:53 PM

Social Law Library

3 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-5
optometrist at the Walmart Vision Center in North Dartmouth (Walmart),
requesting call rec-[259] ords[4] and any other information related to the
defendant's eyeglasses, even though a grand jury had not yet convened to
consider the defendant's case. That afternoon, State police troopers
consulted an optician, who confirmed that the eyeglasses recovered from the
crime scene matched the defendant's prescription and frame style received
from Walmart pursuant to the grand jury subpoena.
The grand jury indicted the defendant on June 25, 2008, and the jury
convicted the defendant on May 4, 2012.
b. Procedural history. More than two years before trial, defense counsel
filed a motion to suppress, arguing that the search warrant affidavit did
not provide enough information for the issuing magistrate to find probable
cause that the defendant was responsible for the victim's murder or that
evidence of the crime would be found in the defendant's apartment. The
motion judge denied this motion on March 17, 2010.[5] More than four years
after his conviction, the defendant filed a motion for a new trial, arguing
that he had received ineffective assistance of counsel because his trial
attorney had not additionally sought to suppress the optical records or the
defendant's CSLI. The trial judge denied the new trial motion on January 9,
2019, because he concluded that any motions to suppress the optical records
or the CSLI would have failed, such that any error was nonprejudicial and
trial counsel was therefore not ineffective. The judge
2/7
nonetheless agreed with the defendant's argument that the Commonwealth had
issued the grand jury subpoena for the improper purpose of furthering a
police investigation and that the Commonwealth had followed an improper
procedure by allowing Walmart to produce the records to the State police
troopers who presented the subpoena, rather than to a court.
2. Discussion. a. Standard of review. When we analyze an appeal from the
denial of a motion for a new trial consolidated with a direct appeal from a
conviction of murder in the first degree pursuant to G. L. c. 278, § 33E,
we do not ask whether counsel's behavior fell below that of an “ordinary,
fallible lawyer,” because that standard is less favorable to the defendant
than [260] the review we deploy pursuant to § 33E. Commonwealth v. Morales,
453 Mass. 40,
43-44 (2009), quoting Commonwealth v. Satterfield, 373 Mass. 109, 115 n.10
(1977). Rather, we assess whether any error occurred, based on the
defendant's substantive claims, and if so, whether that error likely
influenced the jury's conclusion so as to create a substantial likelihood
of a miscarriage of justice. See Morales, supra at 44, citing Commonwealth
v. Wright, 411 Mass. 678, 682 (1992), S.C., 469 Mass. 447 (2014). One such
error would be if defense counsel failed “to litigate a viable claim of an
illegal search and seizure.” Commonwealth v. Comita, 441 Mass.
86, 90 (2004), quoting Commonwealth v. Pena, 31 Mass. App. Ct. 201, 204
(1991). Whether trial counsel so failed depends on whether the defendant
can “demonstrate a likelihood that the motion to suppress would have been
successful” when filed. Comita, supra at 91. We analyze that likelihood
objectively, “given what [the attorney] knew or should have known at each
relevant moment in time,” Commonwealth v. Hardy, 464 Mass. 660, 665 (2013),
quoting Ouber v. Guarino, 293 F.3d 19, 27-28 (1st Cir. 2002), and without
“the advantage of hindsight,” Commonwealth v. Adams, 374 Mass. 722, 729
(1978). There was no error.
b. Propriety of the grand jury subpoena. The defendant contends that his
trial counsel provided ineffective assistance because he did not move to
2/15/2021, 1:53 PM

Social Law Library

4 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-6
suppress the optical records that the Commonwealth received from Walmart in
compliance with the grand jury subpoena for two reasons: (1) the
Commonwealth issued the subpoena following improper procedure and for an
improper purpose; and (2) the defendant had a reasonable expectation of
privacy in his optical records, such that the subpoena violated his
constitutional right against unreasonable searches and seizures.[6]
i. Proper procedure for and purpose of a grand jury subpoena. The defendant
argues that the Commonwealth followed improper procedure and issued a
subpoena for an improper purpose, because the subpoena sought third-party
records without judicial authorization, because the subpoena authorized the
third party to produce the records to the issuing officer in lieu of
bringing the [261] records to the court, because the Commonwealth issued
the subpoena the day before the grand jury first heard evidence on the
defendant's case and weeks prior to the Commonwealth introducing the
evidence to the grand jury, and because the prosecutor intended the
subpoena to further a police investigation. No contention has merit.
In the context of a grand jury investigation, the Commonwealth may subpoena
certain documents in the possession of third parties pursuant to G. L. c.
277, § 68, for the purpose of presenting evidence to the grand jury prior
to the defendant's indictment without prior judicial approval and without
producing them directly to the court. See Commonwealth v. Mitchell, 444
Mass. 786, 798 n.17 (2005); Commonwealth v. Lampron, 441 Mass. 265, 270271 (2004) (“a subpoena for documents in the possession of a nonparty may
be issued by a prosecutor over his or her own signature” pursuant to G. L.
c. 277, § 68). Cf. Commonwealth v. Odgren, 455 Mass. 171, 178-179 (2009)
(discussing historical development of G. L. c. 277, § 68).[7] The procedure
was proper.
The Commonwealth must issue the subpoena under G. L. c. 277, § 68, for a
proper purpose, namely, “to present a witness or evidence to a court or
grand jury,” Mitchell, 444 Mass. at 798 n.17, so as to further the grand
jury's function, which is to de-[262] termine whether there was sufficient
probable cause to issue an indictment, Commonwealth v. Cote, 407 Mass. 827,
832 (1990). See Matter of a Grand Jury Investigation, 427 Mass. 221,
226 (1998). Prosecutors abuse their subpoena authority when they seek
third-party records under G. L. c. 277, § 68,
for matters that are not or will not come before a grand jury by “us[ing]
an evidentiary hearing intended for one purpose to subpoena records for
another, unrelated purpose” or to obtain evidence from third parties in
preparation for trial. Odgren, 455 Mass. at 184. See Commonwealth v.
Chamberlain, 86 Mass. App. Ct. 705, 709 (2014) (ethical or
3/7
statutory violation when “the records could not have been intended to be
produced at a grand jury, as none had been convened at the time”).
The prosecutor issued the grand jury subpoena for the defendant's optical
records on a day the grand jury were sitting and one day before the grand
jury convened to consider the defendant's case. To the extent that the
prosecutor also hoped to obtain evidence tying the defendant to the crime
scene while the police interrogated the defendant, that does not mean that
the Commonwealth issued the subpoena for an improper purpose, if it, in
good faith, intended to present evidence to a sitting grand jury. Even
though the subpoenaed documents were not immediately presented to the grand
jury, the Commonwealth soon thereafter informed the grand jury about the
evidence and formally introduced the documents to the grand jury
thereafter. Prosecutors collect and analyze evidence in advance of
presenting it to the grand jury, and there is nothing improper about
2/15/2021, 1:53 PM

Social Law Library

5 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-7
presenting that evidence in context. See Supreme Judicial Court Committee
on Grand Jury Proceedings: Final Report to the Justices, at 29 (June 2018)
(prosecutors may review grand jury materials prior to presentation, to
prevent nonresponsive or inappropriate information from reaching grand
jury).
ii. Suppression. Whether the Commonwealth issued the subpoena with improper
procedure or for an improper purpose is a “statutory or ethical violation,
not a constitutional one,” Chamberlain, 86 Mass. App. Ct. at 709, for which
suppression is not ordinarily the proper remedy, see Commonwealth v.
Smallwood, 379 Mass. 878, 888 (1980). See also Odgren, 455 Mass. at 188.
Moreover, the optical records are not privileged.
Nonetheless, the defendant contends that the subpoena, which neither is a
search warrant nor demonstrates probable cause, violated his constitutional
rights because it constituted a search of his [263] optical records for
which he had a reasonable expectation of privacy. See Commonwealth v. Doe,
408 Mass. 764, 768 (1990) (“Although grand juries have broad authority to
conduct inquiries, they may not override constitutional rights …”
[citations omitted]). See also Odgren, 455 Mass. at 188 (for subpoena that
violated defendant's constitutional right, “evidentiary exclusion … might
be appropriate”). Medical records and hospital records are summonsed into
court by statute, without application of the protocol for privileged
records. See Commonwealth v. Dwyer, 448 Mass. 122, 136 (2006); G. L. c.
233, §§
79, 79G. Pursuant to the third-party doctrine, the Commonwealth did not
search, in the constitutional sense, the defendant's ophthalmological
records when subpoenaing them from Walmart because he has no reasonable
expectation of privacy in his optical prescription retained by Walmart in
order to complete his purchase of eyewear. See Carpenter v. United States,
138 S. Ct. 2206, 2219 (2018) (discussing third-party doctrine);
Commonwealth v. Augustine, 467
Mass. 230, 244 (2014), S.C., 472 Mass. 448 (2015) (same).
The defendant nevertheless compares his ophthalmological records to CSLI,
for which we have determined that people have a reasonable expectation of
privacy under art. 14 of the Massachusetts Declaration of Rights, see
Augustine, 467 Mass. at 232, and for which the United States Supreme Court
found the same under the Fourth Amendment to the United States
Constitution, see Carpenter, 138 S. Ct. at 2220-2221. Neither Augustine nor
Carpenter formally abrogated the third-party doctrine; they merely declined
to extend it to CSLI because its “unique nature” creates “an allencompassing record of the holder's whereabouts.” Carpenter, supra at 2217.
See Augustine, supra at 251 (“we do not reject categorically the thirdparty doctrine and its principle that disclosure to a third party defeats
an expectation of privacy”). Unlike CSLI and other modern technological
information, the government cannot use optical records to go “rummaging
through the complex digital trails and location records created merely by
participating in modern society.” Commonwealth v. McCarthy, 484 Mass. 493,
499 (2020), citing Commonwealth v. Almonor, 482 Mass. 35, 46 (2019) (police
using cell phone to reveal real-time location violates art. 14). Because
the government can aggregate long periods of CSLI to create a “complete
mosaic” of a person's life, people must have a reasonable expectation of
privacy in that mosaic even if they do not have a [264] reasonable
expectation of privacy in each individual movement collected by the CSLI.
McCarthy, supra at 503-504. Optical records, on the other hand, cannot
provide a similar mosaic. We decline to abrogate the third-party doctrine
for optical records, and therefore, the grand jury subpoena did not violate
the defendant's constitutional rights and suppression is not warranted.[8]
For the reasons stated supra, trial counsel accordingly did not provide
2/15/2021, 1:53 PM

Social Law Library

6 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-8
ineffective assistance by failing to file a motion to suppress the optical
records based on the grand jury subpoena because such a motion would have
been futile at the time of trial. See Comita, 441 Mass. at 90.
4/7
c. Suppression of the CSLI. The defendant asserts that his trial counsel
provided ineffective assistance because he did not move to suppress the
CSLI evidence, an error that caused a substantial likelihood of a
miscarriage of justice because the search warrant for the defendant's home,
which produced critical inculpatory evidence, would have lacked probable
cause absent the CSLI. We disagree, because the search warrant affidavit
demonstrated probable cause even with the CSLI evidence excised, and
therefore the failure of trial counsel to file a motion to suppress did not
create a substantial likelihood of a miscarriage of justice.
We assess whether the search warrant affidavit would have satisfied
probable cause absent the unconstitutionally obtained CSLI.[9] See
Commonwealth v. Estabrook, 472 Mass. 852, 865 (2015). We must therefore
determine “whether there are enough facts in the affidavit traceable to
sources independent of the illegally obtained CSLI to establish probable
cause for the search warrant.” Id. at 866.[10] “An affidavit in support of
a search warrant … must demonstrate ‘probable cause to believe [1] “that a
[265] particularly described offense has been, is being, or is about to be
committed, and [2] that [search] will produce evidence of such offense or
will aid in the apprehension of a person who the applicant has probable
cause to believe has committed, is committing, or is about to commit such
offense.”’ ” Id. at 870, quoting Augustine, 467 Mass. at 256. We review the
affidavit de novo, evaluating its four corners “in a commonsense and
realistic fashion,” making reasonable inferences where appropriate to
ensure that there is a sufficient nexus between the items sought and the
criminal activity, and to ensure that the items would reasonably be
expected to be in the place to be searched (citation omitted). Commonwealth
v. Hobbs, 482 Mass. 538, 544 (2019).
The search warrant affidavit met these requirements without the CSLI. In
ruling on the defendant's pretrial motion to suppress, the motion judge
found sufficient evidence to establish probable cause and noted that any
inference about the defendant's location drawn from the CSLI was “not
essential to the magistrate's finding probable cause.” The warrant
affidavit recounted evidence that the victim limited whom he admitted into
his apartment and how he did so, that there was no sign of forced entry,
and that the defendant had no apparent defensive wounds, which constituted
reasonable grounds to infer that the victim knew his assailant. The
affidavit also described the distinctive Vans shoe sole impression, which
the police believed with a reasonable degree of certainty came from a size
thirteen Vans MacGyver shoe. The police had interviewed at least twenty
people in connection with the murder, and the defendant was the only person
known to them who had size thirteen shoes, and he was a customer and at
least [266] an acquaintance of the victim. Given that the victim maintained
a tight circle of clientele and friends whom he allowed into his apartment,
and that size thirteen shoes are relatively uncommon, it was reasonable for
the issuing magistrate to infer that the defendant may have made the
footprint, indicating that he stepped through the crime scene at or about
the time of the murder. The affidavit also included information that the
defendant and the victim had recently argued about a drug sale, that the
victim had likely died sometime around February 8, 2008, and that the last
outgoing call from the victim's cell phone was made to the defendant at
4:56 P .M. Moreover, the warrant affidavit indicated that the defendant may
have lied when he told the police that he called the victim numerous times
around the time of the murder to plan a snowmobiling trip, a plan that the
2/15/2021, 1:53 PM

Social Law Library

7 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-9
victim's best friend disputed.
The warrant affidavit sought authority to search the defendant's apartment
for, among other things, (1) the victim's cell phone, which was missing and
could have critical evidence about who saw the victim near the time of his
death; and (2) evidence related to the size thirteen Vans MacGyver
shoeprint. Taken together, the information in the warrant affidavit, after
excising the CSLI, demonstrated probable cause to believe that the
defendant might have committed the crime and that a search of his apartment
would produce evidence related to the crime. See Estabrook, 472 Mass. at
870. Moreover, the affidavit alleged a sufficient nexus between the items
sought, such as the Vans MacGyver shoes and the victim's cell phone, and
the victim's murder. See Hobbs, 482 Mass. at 544. Finally, the affidavit
provided sufficient information for a magistrate to have reasonably
inferred that the evidence sought would be at the defendant's apartment,
because the victim's CSLI indicated that his cell phone moved following the
murder and because people ordinarily keep shoes at their apartment. See id.
Because the search warrant affidavit satisfied probable cause when excising
the unconstitutionally obtained CSLI, the defendant has failed to
demonstrate any prejudice.[11] See Estabrook, 472 Mass. at 865. The
defendant's trial counsel was thus not ineffective for failing to move to
suppress the CSLI because the court would have denied that
5/7
motion, such that any error did not result in prejudice to the defendant,
let alone cause a substantial like-[267] likehood of a miscarriage of
justice. See Morales, 453 Mass. at 44; Comita, 441 Mass. at 90.
d. Review pursuant to G. L. c. 278, § 33E. We have reviewed the entire
record comprehensively and find no basis to set aside the verdict of murder
in the first degree or to order a new trial.
3. Conclusion. For the reasons stated supra, the defendant has failed to
demonstrate that his trial counsel was ineffective. We affirm his
conviction and the order denying his motion for a new trial.
So ordered.
--------------------------[page 256]
[1]Chief Justice Gants participated in the deliberation on this case prior
to his death.
[page 258]
[2]Prior to trial, the defendant filed a motion to suppress the shoebox,
contending that the apartment building's shared basement,
where the police found the shoebox, was outside the s cope of the warrant.
The motion judge denied the motion to suppress , and we see no reason to
differ bas ed on our review pursuant to G. L. c. 278, § 33E.
[3]The officers interviewing the defendant confronted him with the empty s
hoe box, as king him if he knew what the box was . The defendant responded,
“Obvious ly it was Vans , right? You got Vans footprints somewhere?” He
further exclaimed, “You're bringing my shoes in here,” and admitted that he
at one point owned s ize thirteen Vans MacGyvers even if he did not know
when he purchased them or where the actual s hoes were.

2/15/2021, 1:53 PM

Social Law Library

8 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-10
[page 259]
[4] The defendant had called Walmart on February 8 at 5:37 P .M.[
[5]Although defense counsel did not move to suppress the CSLI, at trial he
success fully moved to limit how the Commonwealth could us e the CSLI. The
trial judge prohibited the Commonwealth from introducing evidence that
would have estimated the locations of the defendant's and the victim's
respective cell phones relative to the cell towers .
[page 260]
[6] Even if the defendant's allegations concerning the propriety of the
grand jury subpoena had merit, suppression would be an improper remedy
because the errors did not prejudice his defense, given that he had
sufficient notice of the contents of the optical records prior to trial.
See Commonwealth v. Burgos, 470 Mas s . 133, 148 (2014); Commonwealth v.
Smallwood, 379 Mas s . 878, 888 (1980).
[page 261]
[7]The defendant mistakenly contends that the Commonwealth mus t comply
with the requirements of Mas s . R. Crim. P. 17 (a), 378 Mas s . 885
(1979), which requires seeking prior judicial approval and producing the
records to the court, when subpoenaing third-party records for a grand
jury. The Commonwealth only mus t do s o post indictment, even though a
defendant mus t comply with the rule when subpoenaing third-party records
prior to trial at all stages of the criminal case. See Commonwealth v.
Odgren, 455 Mas s . 171, 179, 187 n.28 (2009) (“The res ult we reach in
this case — that, apart from grand jury proceedings , the Commonwealth mus
t obtain judicial approval before seeking the production of records from a
third party in advance of an evidentiary hearing or trial — is compelled by
the authorities … , including Mas s . R. Crim. P. 17 [a]. Under our current
law, the only way for a prosecutor, post indictment, or a defendant to
subpoena third-party records without firs t obtaining judicial approval is
to subpoena the records for production on the firs t day of trial, on the
theory that the party s ubpoenaing the records wis hes to us e them at
trial”). See als o Preventive Med. Assocs., Inc. v. Commonwealth, 465 Mas s
. 810, 820 (2013) (“a party to a pending criminal cas e s eeking pretrial
production of third-party records under rule 17 [a] [2] — whether the party
be the Commonwealth or the defendant — mus t file a motion s eeking prior
judicial approval”). A pros ecutor may als o is s ue a grand jury s ubpoena
pos tindictment if the grand jury inves tigation is continuing and if the
purpos e of that s ubpoena is to aid that inves tigation in determining
whether to indict the defendant further.
[page 264]
[8]The defendant als o attempts to analogize to a s ituation in which a
defendant unwillingly provided information to a medical provider, who then,
without the defendant's knowledge or cons ent, turned the records over to
the police for a criminal inves tigation. See Ferguson v. Charleston, 532
U.S. 67, 70-71, 78 (2001) (joint program created by police and hos pital
for purpos e of collecting information from expectant mothers for law
enforcement inves tigation). The analogy is in apposite.
6/7
[9] While the is s ue is a clos e one, we need not res olve whether there
was probable caus e within the four corners of the § 2703 warrant, because
probable caus e was s atis fied in the s earch warrant with the CSLI excis
ed from the affidavit in s upport of the search warrant. For the same
reason, we need not reach whether Augustine applies retroactively to the
defendant's case.

2/15/2021, 1:53 PM

Social Law Library

9 of 9

http://sll.gvpi.net/document.php?id=sjcapp:sjc20z1-1&type=hitlist&num=0

A-11
[10] A case currently pending before this court on further appellate review
rais es the is s ue whether, in cases such as Commonwealth v. Estabrook ,
472 Mas s . 852, 865-870 (2015), we have inappropriately omitted an
additional, subjective prong of the independent source analysis discussed
in Murray v. United States, 487 U.S. 533, 537 (1988), namely, whether the
officers would have s ought the warrant abs ent information obtained in the
initial illegal
search. See Commonwealth vs. Pears on, No. SJC-12930. The defendant has not
raised such an argument here. Nonetheless , having considered the issue as
part of our plenary review under G. L. c. 278, § 33E, we conclude that this
case does not require us to resolve the open questions regarding the
applicability and contours of such a subjective prong. Even examining the
evidence in the light mos t favorable to the defendant, the officers would
have s ought the warrant for the defendant's apartment in the absence of
the CSLI data. The defendant was the only suspect investigated with size
thirteen s hoes , the police knew from the victim's cell phone records that
the last outbound call made by the victim was to the defendant, and, among
other evidence, the defendant admitted that he had left a pair of eyeglass
es at the victim's apartment, which the police found with a bloody
fingerprint on the lens . There was no substantial likelihood of a mis
carriage of justice.
[page 266]
[11] For the same reason, the search did not violate the defendant's Fourth
Amendment rights See Murray, 487 U.S. at 537 (explaining independent source
doctrine).
7/7

©
C)Copyright
Copyright 2021
2021 Proprietors
Proprietors of
of the
the Social
Social Law
Law Library.
Library. All Rights Reserved.

2/15/2021, 1:53 PM

A-12
Theodore Riordan, Esq.
From:
Sent:
To:
Subject:

SJCCommClerk@sjc.state.ma.us
Monday, January 25, 2021 6:00 PM
TRiordan@BatesRiordan.com; Attorney@BatesRiordan.com
SJC-11598 - Notice of Docket Entry

Supreme Judicial Court for the Commonwealth of Massachusetts
RE: Docket No. SJC-11598
COMMONWEALTH
vs.
RENE GOSSELIN
NOTICE OF DOCKET ENTRY
Please take note that the following entry was made on the docket of the above-referenced case:
January 25, 2021 - DENIAL of Motion for Reconsideration or Modification. (By the Court)
Francis V. Kenneally Clerk
Dated: January 25, 2021
To:
David B. Mark, A.D.A.
Mary E. Lee, A.D.A.
Theodore F. Riordan, Esquire
Bristol Superior Court

1

A-13
COMMONWEALTH OF MASSACHUSETTS
THE TRIAL COURT
SUPERIOR COURT DEPARTMENT
Docket No. 0873CR0657

BRISTOL, ss.

COMMONWEALTH

BRISTOL, SS SUPERIOR COURT
FILED

v.

JAN 1 0 2019

RENE GOSSELIN

MARC J SANTOS, ESQ.
CLERK/MAGISTRATE

MEMORANDUM OF DECISION AND ORDER ON
DEFENDANT'S MOTION FOR NEW TRIAL
On May 4, 2012, the defendant, Rene Gosselin, was convicted of first degree murder of
Frederick Thompkins with extreme atrocity or cruelty. G.L. c. 265, § 1. The defendant's direct
appeal to the Supreme Judicial Court has been stayed pending review by this court of his motion
for new trial.
FACTS
The following evidence was presented to the jury at trial.'
On February 15, 2008, Frederick Thompkins' landlord found Thompkins' body in a pool
of blood in Thompkins' living room. The odor of decomposition was strong both inside and
outside the apartment. Thompkins had been dead for about a week. The cause of death was
blunt force to his head, resulting in multiple lacerations and fractures of his skull.
Police found a large amount of blood in Thompkins' living room and smaller amounts of
blood in other rooms. There was no sign of forced entry. Thompkins was lying on his back.
The living room was in disarray. Thompkins' jeans were unbuttoned, unzipped and down. A

Additional facts, which were not before the jury, will be set out infra, in the analysis of particular claims raised by
the defendant. These include the court's findings of fact made following an evidentiary hearing concerning the
Commonwealth's use of a grand jury subpoena to obtain the defendant's optical records.

A-14
blood-soaked bundle of cash was between Thompkins' legs and loose cash was to the sides of his
legs. Altogether, there was about $ 500. Hairs were found in each of Thompkins' hands and on
the front of his shirt. DNA analysis later showed that the hair in his right hand belonged to April
Monteiro, a close family friend and Thompkins' sometime lover.
A pair of eyeglasses with a fingerprint in blood on the left lens and a missing right lens
was partially under the living room couch. The fingerprint was later determined to be that of
Thompkins. The right lens, by itself, was near Thompkins. Shoeprints, made in blood were on
the living room floor. The soles of the shoes contained the word, "Vans."
Thompkins sold marijuana and cocaine. The defendant was a friend as well as a
customer of Thompkins and bought both types of drugs from him. Police found 95.22 grams of
cocaine and drug paraphernalia in a kitchen cabinet. A lock box that Thompkins used to store
drugs and cash was open and empty.
Thompkins used a cell phone with the number, (508) 316-6074. The phone was not in
the apartment. Records of the Sprint/Nextel company for that cellphone were introduced at trial.
The last outgoing call from that phone occurred on February 8, 2008 at 4:56 P.M. That call
lasted 40 seconds and was to a cellphone with the number, (774) 278-1267. Thompkins' phone
had received a call from that number, lasting 83 seconds, at 4:04 P.M. that day.
Sprint records for Thompkins' cellphone also showed that up until the last outgoing call
at 4:56 P.M. the phone consistently connected to the same cell phone tower in Fall River. After
the last outgoing call, the phone received several calls that went to voice mail. During those
calls, the phone connected to other cell phone towers in Fall River. While receiving an incoming
voice mail at 5:56 P.M. the phone switched between two cell towers, which could indicate that it
was moving.

2

A-15
Records of Verizon Wireless for the phone registered as (774) 278-1267 were also
introduced. That phone was registered under the name of the defendant's fiancée, Priscilla Dias.
There was evidence that the defendant customarily used that phone. Those records likewise
showed calls connecting with Thompkins' phone at 4:04 P.M. and 4:56 P.M. on February 8

th. In

addition, the records showed calls at 5:37 P.M. and 6:02 P.M. to the 411 information system,
which were then transferred to (508) 984-4062. That number was registered to the Walmart
Vision Center in Dartmouth.
Records of the Walmart Vision Center were introduced showing that the defendant
purchased eyeglasses there on June 13, 2007. Lori Davignon, the manager of the Walmart
Vision Center, testified that the eyeglass frames found in Thompkins' apartment were the same
size and model purchased by the defendant. An optician, Dr. Robert Dunn, examined the
eyeglass lenses found in Thompkins' apartment and testified that those lenses matched the
prescription of the lenses in the eyeglasses the defendant purchased at Walmart.
Police investigated the shoeprints found in Thompkins' apartment. They learned that the
shoes that made the prints were manufactured by the Vans Footwear Company. The model of
the shoe was known as the "MacGyver." The shoes that left the prints were size thirteen.
On March 5, 2008, police executed a search warrant at the defendant's home in Fall
River. In the basement, inside a cardboard box, police found a Vans shoebox, containing various
papers bearing the defendant's name but no shoes. The labels on the box indicated that the box
contained a pair of size thirteen Vans "MacGyver" shoes in charcoal and white.
An executive of the Vans Footwear Company testified that the labels on the box and
company records indicated that the shoes shipped in that box were sold to a shoe retailer named
"Shoe Show." The Shoe Show Company bought 181 pairs of charcoal and white "MacGyver"

3

A-16
shoes in size thirteen. An executive from the Shoe Show Company testified that their records
also indicated that Shoe Show bought 181 pairs of charcoal and white "MacGyver" model shoes
in size thirteen from the Vans Company. Shoe Show records documented that only two of those
pairs were sold in Massachusetts, both at Shoe Show's retail store at a shopping mall in
Dartmouth.2 One pair was sold on January 26, 2007. The other was sold on May 17, 2007.
The defendant was interviewed by the police on February 16, 2008 and again on March
5, 2008. Those interviews were recorded and portions of them were shown to the jury. During
the February 16th interview, the defendant told police that he and Thompkins had plans to go
snowmobiling on the weekend of February 16-17, 2008. Thompkins' best friend, Eric Power,
testified that Thompkins had made plans to go mountain biking with him and another friend,
Frank Stanley, that weekend. Thompkins had not mentioned any plan to go snowmobiling with
the defendant. During the March 5th interview, the defendant told police that he had left his
eyeglasses at Thompkins' apartment and asked Thompkins to look for them. He also denied
having purchased Vans shoes within the last year and denied knowing how he came to have the
Vans shoebox for size thirteen Vans MacGyver shoes.
ANALYSIS
Rule 30 (b) of the Massachusetts Rules of Criminal Procedure provides that, on motion of
the defendant, the trial court "may grant a new trial at any time if it appears that justice may not
have been done." The defendant contends that justice was not done because he was denied the
effective assistance of counsel in violation of the Sixth and Fourteenth Amendments to the
United States Constitution and Article 12 of the Massachusetts Declaration of Rights.

The executive testified that two pairs were sold in New Hampshire; three pairs in Maine; none in Connecticut; and
none in Rhode Island.

2

4

A-17
The defendant argues that his trial counsel was ineffective in failing to move to suppress:
(1) his optical records, which the Commonwealth obtained through a grand jury subpoena;
(2) the defendant's cell site location information ("CSLI"), which the Commonwealth obtained
through an order issued pursuant to G.L. c. 271, § 17B and 18 U.S.C. § 2703 (d); and
(3) a shoebox and statements made by the defendant when confronted with the shoebox, obtained
by police as a result of executing a search warrant at the defendant's home, on grounds that the
warrant was issued based on the improperly-obtained CSLI.3
I.

Standard for Ineffective Assistance of Counsel

"Both art. 12 of the Declaration of Rights of the Massachusetts Constitution and the Sixth
Amendment to the United States Constitution guarantee a right to the effective assistance of
counsel. Strickland v. Washington, 466 U.S. 668 (1984). Commonwealth v. Hurley, 391 Mass. 76
(1984). This right has been recognized as essential to the protection of the fundamental right to a
trial. Id. [The Supreme Judicial Court has] held that the right to effective assistance of counsel,
afforded a defendant by art. 12, `provide[s] greater safeguards than the Bill of Rights of the
United States Constitution.' Commonwealth v. Hodge, 386 Mass. 165, 169 (1982). Thus, if the
Massachusetts standard for effective assistance of counsel is met, `the Federal test is necessarily
met as well.' Commonwealth v. Fuller, 394 Mass. 251, 256 n. 3 (1985)." Commonwealth v.
Lykus, 406 Mass. 135, 138-139 (1989).
The defendant urges the court to apply the "more favorable" standard of review applied
by the Supreme Judicial Court under G.L. c. 278, § 33E, Commonwealth v. Facella, 478 Mass.
393, 409 (2017), rather than the constitutional standard applicable to ineffective assistance of

The defendant moved to suppress the items seized pursuant to the search warrant for his home on grounds that the
affidavit submitted in support of the warrant did not establish probable cause; the information contained in the
affidavit was stale; and the search of the basement exceeded the scope of the warrant. He did not argue that his
CSLI should be excised from the affidavit because it was unlawfully obtained.

3

5

A-18
counsel claims.4 Section 33E, however, applies only to review by the Supreme Judicial Court.
Therefore, this court must apply the constitutional standard established by Commonwealth v.
Saferian, 366 Mass. 89, 96 (1974). See Commonwealth v. Salazar, 481 Mass. 105,

n. 6

(2018) (in cases of first-degree murder, trial court applies Saferian standard while Supreme
Judicial Court applies Section 33E, which may lead to different outcomes).
"Where a new trial motion is based on ineffective assistance of counsel, the familiar
standard used to analyze such a claim is 'whether there has been serious incompetency,
inefficiency, or inattention of counsel-behavior of counsel falling measurably below that which
might be expected from an ordinary fallible lawyer-and, if that is found, then, typically, whether
it has likely deprived the defendant of an otherwise available, substantial ground of defence.' ...
The burden of proving entitlement to a new trial based on ineffective assistance of counsel rests
on the defendant. ... A defendant must show that better work might have accomplished
something material for the defense. ... A strategic or tactical decision by counsel will not be
considered ineffective assistance unless the decision was 'manifestly unreasonable' when made.
... Further, mere speculation, without more, is insufficient to establish ineffective
representation." Commonwealth v. Watson, 455 Mass. 246, 256 (2009), quoting
Commonwealth v. Saferian, 366 Mass. 89, 96 (1974).

"Where 'the defendant has been convicted of murder in the first degree, [the Supreme Judicial Court] examine[s]
his claims of ineffective assistance of counsel under the rubric of [G.L. c. 278] § 33E 'to determine whether there
exists a substantial likelihood of a miscarriage ofjustice.' Commonwealth v. Frank, 433 Mass. 185, 187 (2001). This
standard is 'more favorable' to the defendant than the general constitutional standard for determining ineffective
assistance of counsel. See Commonwealth v. Wright, 411 Mass. 678, 682 (1992), S.C., 469 Mass. 447 (2014).
Accordingly, [the Supreme Judicial Court's] analysis of the defendant's motion for a new trial focuses on 'whether
there was an error in the course of the trial (by defense counsel, the prosecutor, or the judge) and, if there was,
whether that error was likely to have influenced the jury's conclusion.'" Commonwealth v. Facella, 478 Mass.
393, 409 (2017).

4

6

A-19
II.

Defendant's Optical Records

The defendant argues that his trial counsel was ineffective in failing to move to suppress
the defendant's optical records. He contends that the Commonwealth obtained the records
unlawfully: (A) by use of a grand jury subpoena that commanded production of the records for
the purpose of police investigation prior to grand jury proceedings; and (B) by the use of a grand
jury subpoena, rather than a search warrant.
A. Grand Jury Subpoena
1) Findings of Fact
The court conducted an evidentiary hearing on the defendant's claim that the
Commonwealth improperly issued a grand jury subpoena for the defendant's optical records.
Four witnesses testified: former assistant district attorney Garrett Fregault,5 who issued the grand
jury subpoena; Officer Richard Saraiva of the Fall River Police Department; and Troopers David
Coker and Robert Lima of the Massachusetts State Police. Based on the credible evidence and
inferences drawn from such evidence, the court finds the following facts.
On March 5, 2008, the defendant appeared at the Fall River Police Department to give his
second interview in the investigation of the killing of Frederick Thompkins. The interview was
conducted by State Police Trooper Robert Lima and Fall River Detective Richard Saraiva. The
interview began at 11:07 A.M. An audio-visual recording was made of the interview. The
interview was visible as it occurred on a video screen in another room in the police station,
where it was monitored by other investigators as well as assistant district attorneys Patrick
Bomberg and Garrett Fregault.

5

Mr. Fregault is now an assistant clerk-magistrate in the Bristol County Superior Court.

7

A-20
Within about ten minutes of the start of the interview, the defendant was asked what he
discussed when he called Thompkins on February 8, 2008. The defendant said that they may
have talked about a trip to New Hampshire and he may have asked Thompkins if he found his
glasses in Thompkins' apartment. The defendant explained that he thought he had left his
glasses at Thompkins' apartment and had asked Thompkins earlier in the week to look for them.
He said that a lens kept popping out of the glasses because they were broken. Until the
defendant made these statements, the investigators and prosecutors assumed that the glasses
found in the apartment belonged to Thompkins. The defendant's statement caused the
investigators to think the glasses might belong to the defendant.
About 11:30 A.M., as the interview of the defendant continued, Lt. Robert Horman sent
State Trooper David Coker and Fall River Det. Thomas Chace to Walmart Vision Center in
Dartmouth to obtain the defendant's optical records.6 They met with a Walmart employee who
advised them that the records could not be released without either a subpoena or a search
warrant. Trooper Coker informed his superiors of Walmart's response. Assistant District
Attorney Fregault prepared a grand jury subpoena in the following form:
COMMONWEALTH OF MASSACHUSETTS
GRAND JURY
TO:
WAL-MART Vision Center
ATTN: Keeper of Records
506 State Road
Dartmouth, Massachusetts
GREETINGS:

You are hereby Commanded in the name of the Commonwealth, to appear
before the Bristol County Grand Jury, now holden at Fall River, 289 Rock Street,
The police had the defendant's cell phone records showing calls to the Walmart Vision Center around the time of
the killing. Later in the interview, the defendant said he obtained his eyeglasses from Walmart.

6

8

A-21
within and for the County of Bristol on the 5th day of March at 3 o'clock, and
from day to day, thereafter, until the action hereinafter named by said Grand Jury,
to give evidence of what you know relating to:
IN RE: A GRAND JURY INVESTIGATION (FT)
You are further commanded to bring with you the following documents: ANY
AND ALL DOCUMENTS, INCLUDING, BUT NOT LIMITED TO EYEGLASS
PRESCRIPTIONS, RELATING TO RENE GOSSELIN (DOB: 07/02/1981),
AND LOG OF ALL CALLS RECEIVED ON FEBRUARY 8, 2008.
COMPLIANCE: You may comply with this Subpoena by providing copies of all
responsive documents to Massachusetts State Police Trooper David Coker (ID#
3092) at the time you are served with subpoena. Providing the documents to
Trooper Coker will eliminate the need for you to appear before the Grand Jury on
March 5, 2008.
WHEREOF FAIL NOT, as you will answer your default under the pains and
penalties in the law in the behalf made and provided.
DATED at FALL RIVER, March 5th in the year of our Lord Two Thousand and
Eight.
s/ Garrett R. Fregault
Garrett R. Fregault
Assistant District Attorney
(508) 997-0711 ext. 124
Hearing on Motion for New Trial, Exhibit 1 (emphasis in original).
The reason A.D.A. Fregault issued the subpoena with a return date of that afternoon was
that police intended to take the records and the glasses that had been recovered from the
apartment to an optician and obtain an opinion comparing the two before the defendant's
interview was completed. Although the prosecutors did not intend to present evidence to the
grand jury that day, Attorney Fregault thought that if Walmart refused to obey the subpoena, he
could have Trooper Coker testify to that fact before the grand jury, if then in session, and then

seek a capias or other legal process from the court to enforce the subpoena.'

The parties agree that the Bristol County grand jury was sitting on March 5, 2008 hearing other cases. It is not
known whether the grand jury was sitting at 3 o'clock.

9

A-22
A.D.A. Fregault explained that the Bristol County District Attorney's office did not
distinguish between police investigations and grand jury investigations and customarily used
grand jury subpoenas to obtain evidence for both:
BY MR. RIORDAN:

Q.

Okay. And so you were of the opinion that the Grand Jury needed to hear
this that day.

A.

Well, the information needed to be obtained and available to the Grand
Jury for our investigation on that day, yes.

Q.

For whose investigation?

A.

The DA's office, the investigation that we were conducting at that time
into the death of Fred Thompkins.

Q.

Okay. For the police investigation?

A.

For the investigation, yeah.

Q.

Okay.

A.

I don't differentiate police or Grand Jury. It's the investigation.

Q.

It's all one and the same?

A.

Yeah.

Q.

Okay. So, in your mind, is it appropriate to issue a Grand Jury subpoena
for purposes of furthering the police investigation?

A.

Absolutely.
Motion for New Trial Hearing Tr. 75 (Paper # 121).

BY MR. McCAULEY:
Q-

Sir, so the idea of this investigation, you previously said police

investigation, was running — on a homicide case was running
simultaneously with the Grand Jury investigation; is that right?
A.

To me, they are one and the same.

10

A-23
Q.

Right. Okay. And that had been the way, the manner, of operation, so to
speak, for the homicide cases you had been involved in, true?

A.

Absolutely. At that point, I had been in the DA's office I think seven or
seven years. I had done some other homicide investigations. I had done
other investigations that didn't involve fatalities and was an investigation.
I never made the distinction between police investigation and Grand Jury
investigation. It was the investigation.
Motion for New Trial Hearing Tr. 91 (Paper # 121).

Trooper Coker and Det. Chace then returned to the Walmart Vision Center with the grand
jury subpoena and served it on one of the employees at about 1:00 P.M. A Walmart employee
gave a copy of the defendant's prescription to them, together with an eyeglass frame as a sample
of the type the defendant had purchased the prior June. On Lt. Horman's instruction, Trooper
Coker and Det. Chace then went to the State Police Crime Laboratory in Lakeville where they
picked up the eyeglass frame and lenses found in Thompkins' apartment. The sample frame
given to them at Walmart matched the frame obtained from the crime scene.
Following further instructions from Lt. Horman, Trooper Coker and Det. Chace went to a
LensCrafters store at the Taunton Galleria Mall. They arrived at about 4:30 P.M. They asked
Dr. Robert Dunn, the optician there, to look at the defendant's prescription and the lenses from
the glasses found at the crime scene. Dr. Dunn said that they were an exact match. Trooper
Coker reported Dr. Dunn's opinion to Lt. Horman.
The Commonwealth's presentation to the grand jury in this case commenced the next
day, March 6, 2008. The defendant's optical records from Walmart were introduced in evidence
before the grand jury three and a half months later, on June 24, 2008.
2) Analysis of Claim
The defendant contends that the prosecutor's issuance of a grand jury subpoena for his
optical records was unlawful both in purpose and procedure.
11

A-24
Improper Purpose. The defendant first argues that the prosecutor issued the grand jury
subpoena for the improper purpose of aiding the police investigation rather than presenting
evidence to the grand jury. The Commonwealth argues that the prosecutor's use of a grand jury
subpoena to obtain the defendant's optical records was lawful because the records were
eventually presented to the grand jury.8
"A district attorney should limit use of grand jury subpoenas to situations which further
the grand jury's function." Commonwealth v. Cote, 407 Mass. 827, 832 (1990) (improper for a
prosecutor to issue a grand jury subpoena for records that are not presented to the grand jury and
are instead used at trial.) Commonwealth v. Liebman, 379 Mass. 671, 676-677 (1980) (improper
for prosecutor to issue grand jury subpoenas after indictment to obtain records for trial).
The Appeals Court has held that a grand jury subpoena could not be intended to produce
records before a grand jury where a grand jury had not been convened at the time the subpoena
was issued. Commonwealth v. Chamberlain, 86 Mass. App. Ct. 705, 709 (2014), affirmed 473
Mass. 653 (2016). The subpoena issued here called for the production of records before a grand
jury on March 5, 2008. No grand jury had commenced an investigation in this case by March
5th. The grand jury commenced its investigation the following day, March 6th. Had a subpoena
issued on March 5th for the production of records before the grand jury on March 6th, the
subpoena would have been issued to "further the grand jury's function," Cote, supra; but that did
not happen. The subpoena improperly commanded production of documents prior to the start of
the grand jury investigation.
The Commonwealth does not go as far as A.D.A. Fregault in maintaining that there is no distinction between a
grand jury investigation and a police investigation and that a grand jury subpoena may be used to obtain records for
an investigation conducted by police and/or the grand jury. At the hearing on the defendant's motion, the
Commonwealth argued: "It doesn't matter, subjectively, whether someone thinks that the police investigation, the
DA's investigation, and the homicide investigation, and the Grand Jury investigation is all one thing. What matters
is were these records summonsed for the purpose of presenting them to the Grand Jury? And they were." Tr. of
Hearing on Motion for New Trial p. 135 (Paper # 121.)

12

A-25
The police investigation was underway on March 5, 2008 and the circumstances clearly
demonstrate that the grand jury subpoena was issued as an aid to the police. The initial attempt
to obtain the records on March 5th had no connection to the grand jury. The police asked
Walmart to voluntarily provide the records to the police. It was only when that attempt failed
because Walmart required either a subpoena or a search warrant that the authority of the grand
jury was invoked.
Further, the prosecutor did not intend to provide the records to the grand jury at that time.
Instead, the prosecutor intended that the police would take the records, together with the
eyeglasses found at the crime scene, to an expert to be examined to determine whether the
eyeglasses matched the defendant's prescription. There is no indication that the prosecutor
intended that the records would be presented to the grand jury at all if the post-subpoena expert
examination failed to show that the glasses belonged to the defendant. Even when the
examination showed that the glasses matched the defendant's prescription, the prosecutor did not
present the records to the grand jury for another three and a half months.
The Commonwealth correctly points out that a prosecutor may need time after records
are received pursuant to a grand jury subpoena to go through them and separate the relevant from
the irrelevant and the unfairly prejudicial. SJC Committee on Grand Jury Proceedings, Final
Report Best Practice 6 (A), comment (June 2018) ("Courts recognize that in modern practice the
prosecutor must take a 'leadership role' in assembling and presenting documentary evidence to
the grand jury and allow prosecutors time to review documents produced pursuant to a grand
jury subpoena for later presentation.")

It is appropriate, therefore, for a prosecutor to issue a subpoena commanding a recordkeeper to produce documents to the grand jury on one date, while intending to submit them in

13

A-26
evidence before the grand jury on a later date. That is not what occurred here. These records
were obtained on March 5, 2008, prior to the commencement of the grand jury's investigation,
for a purpose other than presenting them to the grand jury. The fact that the prosecutor also
contemplated presenting the records to the grand jury later if the expert's examination showed
that the records inculpated the defendant, does not mean that the prosecutor issued the grand jury
subpoena to "further the grand jury's function." Cote, supra. By issuing a grand jury subpoena
in these circumstances, the prosecutor and police usurped the judicial authority of the grand jury.
Improper Procedure. The defendant also argues that the issuance of the subpoena for the
production of the records to the police prior to a grand jury hearing exceeded the prosecutor's
authority under G.L. c. 277, § 68. The court agrees.
G.L. c. 277, § 68 authorizes prosecutors to issue "subpoenas under their hands for
witnesses to appear and testify on behalf of the commonwealth...." The statute does not
authorize prosecutors to issue subpoenas for the production of records prior to a hearing. "G.L.
c. 277, § 68, which speaks of subpoenas for witnesses 'to appear and testify' ..., makes no
reference to issuing subpoenas in advance of trial or an evidentiary hearing. Commonwealth v.
Odgren, 455 Mass. 171, 179 (2009) (emphasis in original; footnote omitted.)
The authority to summons records prior to a trial or evidentiary hearing was established
in 1979 by the adoption of Mass. R. Crim. P. 17 (a) (2). That rule allows the court — not a
prosecutor — to issue such a summons. "Where rule 17(a)(2) departs from earlier Massachusetts
law is in authorizing the production of subpoenaed records 'within a reasonable time prior to the
trial or ... when they are to be offered in evidence' (emphasis added), when the court so directs."

Odgren at 181, quoting Reporters' Notes to Mass. R. Crim. P. 17 (a) (2).

14

A-27
The summons that A.D.A. Fregault issued commanded the witness to produce records on
a day when prosecutors did not intend to present any evidence to the grand jury in this case.
Such a summons must be authorized by a judge and issued by the court under rule 17 (a) (2).
The District Attorney's office did not comply with the rule. "The subpoena was invalid because
it allowed the keeper of records to provide the [records] in advance of the [grand jury] hearing,
contrary to the language and historical development of G.L. c. 277, § 68, ... which indicate the
records should be produced only at an evidentiary hearing or at trial." Odgren at 183-184
(emphasis in original).
It is also improper for a prosecutor to issue a summons for records with instructions to
deliver the records, or copies of the records, directly to the prosecutor. "[W]hen subpoenaing
records before trial pursuant to rule 17(a)(2) and Lampron, the records are to be delivered to the
court where the judge may allow the parties and their attorneys to inspect and copy them; the
subpoena should not direct that copies of the records be sent directly to the requesting party at
the same time that they are submitted to the court." Odgren at 184 n. 24. The summons issued
by the Commonwealth in this case improperly directed the record-keeper to deliver the records to
Trooper Coker.
The Commonwealth argues that this case is distinguishable from Ogden in that the
summons was for evidence to be presented to a grand jury, rather than at a trial or other postindictment hearing. It maintains that rule 17 (a) (2) does not apply to grand jury subpoenas.9
That is incorrect. "Under rule 17(a)(2), a subpoena may issue for a witness to produce 'books,

as exempting grand jury proceedings from rule 17:
9 The Commonwealth relies on the following sentence in Odgren
"The result we reach in this case—that, apart from grand jury proceedings, the Commonwealth must obtain judicial
approval before seeking the production of records from a third party in advance of an evidentiary hearing or trial—is
compelled by the authorities we have discussed above, including Mass. R. Crim. P. 17(a)." As the Court later made
clear in Preventive Medicine, infra, however, rule 17 (a) (2) applies to grand jury proceedings.

15

A-28
papers, documents, or other objects' (collectively, records) at any type of criminal proceeding in
which evidence may be adduced, including grand jury proceedings, evidentiary hearings, and
trial. ... Rule 17 may apply even before the return of an indictment; ... the rule authorizes the
issuance of a subpoena to a third party to produce records before the grand jury." Preventive
Medicine Associates, Inc. v. Commonwealth, 465 Mass. 810, 819-820 (2013), citing
Commonwealth v. Odgren, 455 Mass. 171, 180-181 (2009) and United States v. R. Enterprises,
Inc., 498 U.S. 292, 299 (1991) (Fed. R. Crim. P. 17 applies to federal grand juries). Cypher,
Criminal Practice and Procedure, § 29:6 (4 th ed.) (rule 17 "applies to proceedings in ... the
Superior Court, including Grand Jury proceedings....")
Suppression of Evidence. Although the Commonwealth obtained the defendant's optical
records improperly, the records need not be suppressed unless the defendant was prejudiced.
"[S]uppression of improperly subpoenaed records is not warranted in the absence of prejudice."
Commonwealth v. Hart, 455 Mass. 230, 243 (2009). Commonwealth v. Balboni, 89 Mass. App.
Ct. 651, 660 (2016) ("suppression is not an appropriate remedy absent a showing that the
erroneously subpoenaed evidence caused prejudice.")

Chamberlain, supra, ("[s]uppression is

not the appropriate remedy absent a showing of prejudice to the defendant.")
"[T]he relevant prejudice is whether the defendant receives the material sufficiently
before trial to prepare a defense, not whether the admissible evidence is inculpatory."
Commonwealth v. Garcia, 82 Mass. App. Ct. 239, 252 n. 26 (2012), quoting Commonwealth v.
Kastner, 76 Mass. App. Ct. 131, 137 n. 10 (2010). Balboni, supra ("Wile relevant question is
whether the defendant received the material sufficiently before trial in order to prepare a
defense.") The defendant makes no claim that he did not receive the optical records in sufficient
time to prepare for trial. He only claims that the Commonwealth used the wrong procedure to

16

A-29
obtain the records. The Commonwealth could have obtained the records using the rule 17
procedure. In the absence of prejudice, suppression is not an appropriate remedy.
Since the defendant was not entitled to the suppression of the optical records, his trial
attorney's failure to move for suppression did not constitute "serious incompetency, inefficiency,
or inattention of counsel-behavior of counsel falling measurably below that which might be
expected from an ordinary fallible lawyer;" nor was the defendant deprived of "an otherwise
available, substantial ground of defence." Saferian, supra.
B. Search Warrant
The defendant contends that he was deprived of the effective assistance of counsel
because his attorney failed to move to suppress his optical records on grounds that the
Commonwealth violated his rights by using a subpoena, rather than a search warrant, to obtain
those records. "When a defendant claims ineffective assistance of counsel for failure to move to
suppress, he must 'demonstrate a likelihood that the motion to suppress would have been
successful.'" Commonwealth v. Jules, 464 Mass. 478, 489 (2013), quoting Commonwealth v.
Walker, 460 Mass. 590, 599 (2011) and Commonwealth v. Comita, 441 Mass. 86, 91 (2004).
"A defendant is not entitled to the suppression of evidence, despite the lack of a warrant,
unless he demonstrates that a 'search' or 'seizure' has occurred." Commonwealth v. Rodriguez,
450 Mass. 302, 307 (2007). Therefore, the facts must show that the subpoena used to obtain the
defendant's optical records from Walmart constituted a search or seizure.
Traditionally, "Fourth Amendment search doctrine was 'tied to common-law trespass'
and focused on whether the Government 'obtains information by physically intruding on a
constitutionally protected area.' ... [However, the Supreme Court has] established that 'the
Fourth Amendment protects people, not places,' and ... protect[s] certain expectations of privacy

17

A-30
as well. When an individual 'seeks to preserve something as private,' and his expectation of
privacy is 'one that society is prepared to recognize as reasonable,' ... official intrusion into that
private sphere generally qualifies as a search and requires a warrant supported by probable
cause." Carpenter v. United States, 138 S.Ct. 2206, 2213 (2018), quoting United States v. Jones,
565 U.S. 400, 405-406 n. 3 (2012) and Katz v. United States, 389 U.S. 347, 351 (1967).
The defendant did not own the optical records; they belonged to Walmart. The defendant
must therefore show that the use of the subpoena violated his reasonable expectation of privacy
in the records. Generally, where a defendant has voluntarily conveyed information to another
person, as the defendant did to Walmart, the defendant has no legitimate expectation of privacy
in the information
Under the third-party doctrine, "the Fourth Amendment does not prohibit the obtaining of
information revealed to a third party and conveyed by him to Government authorities, even if the
information is revealed on the assumption that it will be used only for a limited purpose and the
confidence placed in the third party will not be betrayed." United States v. Miller, 425 U.S. 435,
443 (1976) (bank records). Smith v. Maryland, 442 U.S. 735, 737 (1979) (telephone company
records). Commonwealth v. Augustine, 467 Mass. 230, 241-244 (2014) (history of doctrine
under Fourth Amendment and art. 14). That is what occurred here. The defendant provided
information to Walmart and Walmart turned it over to the police.
The defendant relies on Ferguson v. City of Charleston, 532 U.S. 67 (2001) in support of
his argument that police needed a warrant to obtain his optical records. In Ferguson, the
Supreme Court held that police needed search warrants to obtain the results of urine screens for

cocaine performed by a public hospital on expectant mothers suspected of drug abuse.

18

A-31
Ferguson is distinguishable from the present case because the information obtained by
police had not been provided voluntarily to the hospital by the expectant mothers. The drug
screens were performed by a public hospital under a program established jointly by the hospital
and police for the purpose of law enforcement. The third-party doctrine is based on the
"principle that disclosure to a third party defeats an expectation of privacy...." Augustine, supra
at 251. The patients did not disclose the information to the hospital; the hospital performed the
tests on the patients for the police.
Since the defendant voluntarily disclosed his optical information to Walmart, he had no
legitimate expectation of privacy in that information, even if he expected the information would
be used only for optical and business purposes. Since the defendant lacked a legitimate
expectation of privacy in the information, the police did not perform a search or seizure when
they obtained that information. Thus, a motion to suppress the optical records would have failed.
The defendant's trial attorney did not provide constitutionally inadequate representation by
failing to file such a fruitless motion.
III. Defendant's Cell Site Location Information
The defendant also contends that his trial counsel provided ineffective assistance of
counsel by failing to move to suppress his CSLI I° on grounds that: (A) the Commonwealth
obtained the CSLI through a court order issued under the Federal Stored Communications Act,
18 U.S.C. § 2703 (d), rather than a search warrant; and (B) the facts submitted in support of the
Commonwealth's motion for an order under § 2703 (d) were insufficient under that statute.

10 "The term 'cell site location information' (CSLI) refers to a cellular telephone service record or records that
contain 'information identifying the base station towers and sectors that receive transmissions from a [cellular]
telephone.' ... 'Historical' CSLI refers to CSLI relating to and generated by cellular telephone use that has 'already
occurred at the time of the order authorizing the disclosure of such data.'" Commonwealth v. Augustine, 467 Mass.
230, 231 n. 1 (2014).

19

A-32
A. Failure to Obtain a Search Warrant
In 2014, the Supreme Judicial Court held that art. 14 of the Massachusetts Declaration of
Rights requires police to obtain a search warrant to obtain a suspect's CSLI. Augustine, supra at
257. In 2018, the Supreme Court held that the Fourth Amendment to the United States
Constitution also requires a warrant based on probable cause to obtain CSLI. Carpenter v.
United States, 585 U.S.

, 138 S.Ct. 2206 (2018).

The Commonwealth did not obtain a search warrant for the defendant's CSLI. Instead,
the Commonwealth moved for and received an order allowing it to obtain the defendant's CSLI
pursuant to the Federal Stored Communications Act, 18 U.S.C. § 2703 (d). That statute does not
require either a search warrant or probable cause. It requires production of CSLI on a court order
based on a finding that "specific and articulable facts" show "reasonable grounds to believe" that
the records "are relevant and material to an ongoing criminal investigation."11
Commonwealth v. Estabrooks, 472 Mass. 852, 855 n. 4 (2015).
The defendant contends that his trial counsel provided him with constitutionally deficient
representation by failing to move to suppress his CSLI based on the Commonwealth's failure to
obtain a search warrant. "[O]n a claim of ineffective assistance of counsel, [the court's] review
of counsel's performance is objective. ... [The] court considers 'potential justifications for the
attorney's actions, given what he knew or should have known at each relevant moment in time.'"
Commonwealth v. Hardy, 464 Mass. 660, 665 (2013), quoting Ouber v. Guarino, 293 F.3d 19,
27-28 (1st Cir.2002). "The test is not to be made with the advantage of hindsight, and any
violation of the attorney's duty must be both substantial and prejudicial." Commonwealth v.

Adams, 374 Mass. 722, 729 (1978).

" "The standard required for a § 2703(d) order thus is less than probable cause...; it is 'essentially a reasonable
suspicion standard.'" Augustine at 236.

20

A-33
The defendant's trial took place in 2012, two years before Augustine was decided and six
years before Carpenter. At that time, the future change in the law regarding CSLI was not
readily apparent. The issue in Augustine and in Carpenter was whether the well-established
third-party doctrine, which provides that a person has no expectation of privacy in information
voluntarily provided to a third-party and contained in the third-party's records, applies to CSLI.
The Supreme Judicial Court noted that at the time of its decision in Augustine in 2014 there was
little reason to think CSLI constituted an exception to the doctrine under Federal law:
Although the Supreme Court has not considered the issue whether the
government's obtaining CSLI from a cellular service provider constitutes a
search in the constitutional sense, a number of lower Federal courts have
done so. Applying the third-party doctrine articulated in Miller and Smith,
a majority of these courts has ruled that an individual has no reasonable
expectation of privacy in the CSLI because it is a third-party business
record, and therefore the warrant requirement of the Fourth Amendment
does not apply. Some Federal courts, however, have come to the opposite
conclusion. We have no need to wade into these Fourth Amendment
waters and focus instead on the third-party doctrine in relation to art. 14.
Augustine at 243-244 (footnotes omitted).
The court cited only two Federal court decisions — both from the Eastern District of New York12
— holding that the third-party doctrine did not apply to CSLI. Id. at 244 n. 26.
The court further noted that its prior cases interpreting the Massachusetts Constitution
generally followed the third-party doctrine:
In earlier cases considering a person's reasonable expectation of
privacy in third-party telephone records under art. 14, this court
essentially tracked Fourth Amendment jurisprudence, and applied in
substance the Supreme Court's third-party doctrine.
Id.

In re Application of the U.S. for an Order Authorizing the Release of Historical Cell—Site Info., 809 F.Supp.2d
113, 120-126 (E.D.N.Y. 2011). In re Application of the U.S. for an Order Authorizing the Release of Historical
Cell—Site Info., 736 F.Supp.2d 578, 588-589 (E.D.N.Y. 2010).

12

21

A-34
The court pointed out that in prior cases it said that art. 14 might provide greater
protection than the Fourth Amendment under the third-party doctrine, Id.; but not
specifically as to CSLI:
[N]either the statute, 18 U.S.C. § 2703(d), nor our cases have
previously suggested that police must obtain a search warrant in
addition to a § 2703(d) order before obtaining an individual's CSLI
from his or her cellular service provider.
Id. at 257.
The court concluded that "kin holding here that the Commonwealth generally
must obtain a warrant before acquiring a person's historical CSLI records, this opinion
clearly announces a new rule." Id. In 2012, "an ordinary fallible lawyer" would not have
anticipated this change in the law.
Even so, defense counsel did seek to exclude the CSLI at trial and he was largely
successful. He filed a motion, supported by an expert's affidavit, challenging the
Commonwealth's argument that the fact that his cell phone connected within a particular
cell tower indicated his phone was located near the tower. The court held a voir dire of
representatives from Verizon and Sprint/Nextel on the issue. The court excluded
evidence offered by the Commonwealth as to the specific locations of the towers with
which the defendant's phone connected. The court only permitted evidence as to the city
or town where the connecting tower was located.'

13 The court also permitted testimony that the records indicated a cell phone switched from one tower to another
during a call because that indicated the cell phone may have been in motion. However, such evidence was only
introduced as to Thompkins' phone, not the defendant's phone.

22

A-35
"Where, as here, the defendant's ineffective assistance of counsel claim is based
on a tactical or strategic decision, the test is whether the decision was manifestly
unreasonable when made. ... The inquiry involves both temporal and substantive
considerations. The temporal consideration limits the effect of hindsight by requiring a
focus on the point in time when counsel made the challenged strategic decision. ...
Substantively, [o]nly 'strategy and tactics which lawyers of ordinary training and skill in
the criminal law would not consider competent are manifestly unreasonable. ... The
manifestly unreasonable test, therefore, is essentially a search for rationality in counsel's
strategic decisions, taking into account all the circumstances known or that should have
been known to counsel in the exercise of his duty to provide effective representation to
the client and not whether counsel could have made alternative choices." Commonwealth
v. Kolenovic, 471 Mass. 664, 674-675 (2015) (internal quotation marks omitted).
Based on the facts and the law in 2012, defense counsel chose a rational (and
largely successful) strategy for excluding the CSLI at trial. That is all that is required by
the State and Federal Constitutions.
B. Failure to Satisfy the 2703 (d) Standard
The defendant also argues that the Commonwealth failed to satisfy 18 U.S.C. § 2703 (d).
Under that statute, a court order for the production of certain cell phone records, including CSLI:
shall issue only if the governmental entity offers specific and articulable
facts showing that there are reasonable grounds to believe that ... the
records or other information sought, are relevant and material to an
ongoing criminal investigation.
18 U.S.C. § 2703 (d)
As noted above at n. 11, this is "'essentially a reasonable suspicion standard.' Augustine at 236.
23

A-36
The affidavit submitted in support of the Commonwealth's motion for an order under
§ 2703 (d) was signed by assistant district attorney Patrick Bomberg. The affidavit informed the
court that A.D.A. Bomberg was in charge of the case and described the source of his
information. It described how Thompkins' body was discovered. The affidavit also described
the cause of death as blunt force trauma to the head and the factual basis for concluding that
Thompkins was killed as early as Friday, February 8, 2008. The affidavit explained that
telephone records for Thompkins' phone indicated that the last call he made was at 4:56 P.M. of
February 8th. The affidavit also informed the court that other calls were made to and from
Thompkins' phone on February 8th and that "[s]ome of these calls were either made from or
placed to 774-278-1267 a telephone whose service is provided by Verizon Wireless."
Section 2703 (d) does not require that the factual basis for the court's order identify a
person who is suspected of committing the crime under investigation or that the records relate to
a suspect. It merely requires that the "the records or other information sought, are relevant and
material to an ongoing criminal investigation." The individuals who spoke with Thompkins on
the day of his death could provide investigators with valuable information concerning
Thompkins' location and activities on the day of his murder. Such evidence was "relevant and
material" to the investigation even if it did not identify the killer. The affidavit was therefore
sufficient to satisfy the relatively low standard of relevance required by the statute.
Since a motion to suppress the phone records for failure to satisfy the requirements of
§ 2703 (d) would not have been successful, the defendant's trial counsel was not ineffective for
failing to include that ground in his motion to suppress the CSLI.

24

A-37
IV.

The Search Warrant

The defendant contends that his trial counsel also provided ineffective assistance by
failing to move to suppress the Vans shoebox seized from the basement of his home, as well as
statements the defendant made to police when confronted with the shoebox, on grounds that the
warrant was issued based on the improperly-obtained CSLI.14
For the reasons stated above, defense counsel did not provide ineffective assistance of
counsel. Moreover, even if he did, the failure to move to suppress the CSLI did not deprive him
of "an otherwise available, substantial ground of defence." Saferian, supra. Even without his
CSLI, the affidavit in support of the search warrant provided probable cause to search his home.
"To establish probable cause to search, the facts contained in an affidavit, and reasonable
inferences that may be drawn from them, must be sufficient for the magistrate to conclude 'that
the items sought are related to the criminal activity under investigation, and that they reasonably
may be expected to be located in the place to be searched at the time the search warrant issues."'
Commonwealth v. Walker, 438 Mass. 246, 249 (2002), quoting Commonwealth v. Donahue, 430
Mass. 710, 712 (2000).
Det. Saraiva submitted an affidavit in support of his application for the warrant to search
the defendant's home. Aside from information about the defendant's CSLI, the affidavit
included the following facts.
On February 15, 2008, Frederick Thompkins' body was found in a pool of blood in his
apartment by his landlord. There were no signs of forced entry. The door to the apartment

Prior to trial, the defendant filed a motion to suppress evidence seized from his home on grounds that the affidavit
in support of the motion failed to establish probable cause; the information contained in the affidavit was stale; and
the search of the basement exceeded the scope of the warrant. The court (Cosgrove, J.) denied that motion, noting
that an inference of location based on CSLI was "not essential to the magistrate's finding probable cause."
Memorandum of Decision, p. 4 n. 1 (Paper # 16).
14

25

A-38
building was normally kept locked. According to Thompkins' friends and family, a visitor
would have to call Thompkins before arriving at his home. Thompkins would then let the visitor
into the building.
Thompkins was killed by blunt force trauma to his head. He had no defensive wounds.
He had been dead about a week. A shoeprint in blood in the apartment bore the trade name,
"Vans." Investigation revealed that the print was left by a size thirteen "MacGyver" model shoe
manufactured by the Vans Shoe Corporation.
Friends and family identified the number of the cell phone Thompkins customarily used.
The phone was not found in Thompkins' apartment. The call records for that phone were
supplied by Sprint/Nextel. The records indicated that the last call to the phone was made at 8:44
A.M. on February 9, 2008. An attempt by Sprint/Nextel to connect to that phone was
unsuccessful. The phone records also indicated that a phone, determined to belong to the
defendant, made a call to Thompkins at 4:04 P.M. on February 8, 2008. Thompkins' phone
called the defendant's phone at 4:56 P.M. that day. That was the last outgoing call made on
Thompkins' phone.
Thompkins was a drug dealer. Cocaine and drug ledgers were found in his apartment.
The defendant admitted to buying marijuana from Thompkins. According to Thompkins' former
girlfriend, Thompkins was attempting to sell drugs through other parties, rather than selling them
to customers himself. She reported that several people, including the defendant, sold drugs for
Thompkins. During a recent visit, Thompkins told her that the defendant was "up and coming."
She also reported that at one time she observed the defendant argue with Thompkins over drugs.

The police interviewed the defendant on February 16, 2008. The defendant appeared
disheveled. His demeanor was withdrawn and nervous. He admitting to buying marijuana from

26

A-39
Thompkins and making cell phone calls to him shortly before his death. He explained that the
calls were about a trip they planned to go snowmobiling together on the weekend of February
15th. Of all of Thompkins' friends, family and acquaintances who police were able to interview,
only the defendant wore a size thirteen shoe.
Eric Powers, who was Thompkins' closest friend, told police that Thompkins never
mentioned the snowmobile trip and Powers was sure he would have mentioned it, if Thompkins
was in fact planning to go on the trip, due to their close relationship. None of Thompkins' other
friends and family who the police interviewed were able to confirm the snowmobile trip.
Based on this affidavit, an assistant clerk-magistrate issued a search warrant for the
defendant's home in Fall River. The warrant authorized police to search for trace evidence,
including blood, weapons, clothing, including Vans footwear, Thompkins' phone and records of
the purchase of Vans merchandise.
Although circumstantial, the evidence provided a substantial basis to believe that the
defendant killed Thompkins. The lack of forced entry and defensive wounds indicated
Thompkins was killed by someone he knew and trusted. The defendant worked for Thompkins
as a drug-dealer. They had argued in the past over drugs. The defendant was the last person
Thompkins called before his death. Of all the people police were able to connect with
Thompkins, only the defendant wore the shoe size that matched the bloody shoeprint in
Thompkins' apartment. Finally, the magistrate could conclude that the defendant lied to police
about the subject of his phone calls with Thompkins, thereby demonstrating consciousness of
guilt.
These facts satisfied the probable cause standard, even without the CSLI. "[P]robable
cause does not require a showing that the police resolved all their doubts." Commonwealth v.

27

A-40
Rogers, 39 Mass. App. Ct. 395, 401-402 (1995). "What had to be shown was more than a
suspicion of criminal involvement, something definite and substantial, but not a prima facie case
of the commission of a crime, let alone a case beyond a reasonable doubt." Commonwealth v.
Bond, 375 Mass. 201, 210 (1978). Commonwealth v. Rosario, 54 Mass. App. Ct. 914, 915
(2002).
Because the affidavit established probable cause to believe that the defendant killed
Thompkins, there was also probable cause to believe that trace evidence, such as blood would be
found on his clothing, which would likely be at his house. That included a pair of size thirteen
Vans shoes. The affidavit therefore established probable cause to search the defendant's house
for those items.
The defendant has not carried his burden of proving that his trial counsel provided
ineffective assistance of counsel.
ORDER
The defendant's motion for new trial (Paper # 99) is DENIED.

January 9, 2019
Thomas F. McG ire, Jr.
Justice of the Superior Court

28

A-41

Respectfully submitted,
Rene Gosselin
by his counsel,
Theodore Francis Riordan

Counsel of Record

Deborah Bates Riordan
Bates & Riordan, LLP
5 Beale Street
Quincy, Massachusetts 02170
(617) 328-8080
triordan@batesriordan.com

John P. Riordan, Jr.
Law Office of John Riordan
403 North Montello Street
Brockton, Massachusetts 02301
(617) 588-5562
jriordan@riordanlawgroup.com

